      Department of Homeland Security



       Independent Review of the Federal Emergency 

        Management Agency’s Reporting of FY 2012 

                Drug Control Obligations 





OIG-13-29                                    January 2013

                          OFFICE OJ. INSI'ECTOR GFKFRAL



                                 JAN 2 91013

MEMORANDUM FOR:               Edward Johnson
                              Chief Financial Officer
                              Federal Emergency Management Agency

FROM:                         Anne L. Richards  (h,u;/W.....h
                              Assistant Inspector General for Audits

SUBJECT:                      Independent Review of th e Federal Emergency
                              Manogemen t Agency's Reporting of FY 2011 Drug Control
                              Obligations

Attached fo r your informatio n is our fi nal report, Independent Review of the Federal
Emergency Management Agency's Reporting of FY 2012 Drug Control Obligations.
Federa l Emergency Management Agency's management prepared the Table of Prior
Ye a r Drug Control Obligations and the accomp a ny ing Unreasonable Burden Sb te ment
to comply with the requirements of the Office of National Drug Con trol Pol icy Cireul.r,
Drug Control Accounting, dated May 1, 1007.

We contracted with the independent public accounting firm KPMG llP to perform the
review. KP MG LLP is responsi ble for the attached independent accountants' repo rt,
dated January lB, 2013, and the conclusion, expre,,,,d in it. We do not express an
opinion on the ra ble of Prior Year Drug Control Oblig at ions or the accompanyins
Unrea,on ab le Bu rden Statement. Th is report contains no recommendations.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of ou r report to appropri ate coogressiona I com mitteel with oversigh t and
appropriation responsibil ity over the Depo rt ment 01 Homeland Security We will po,t
the report on our webSite for pub lic dissemination.

Ple.se c.11 me with a ny questions, or your staff may contact Ma rk Bell, Deputy Assista nt
Inspector General for Audits, at 1202) 254-4100 .

Atta chme nt
                               KPMG LLP
                               Suite 12000
                               1801 K Street, NW
                               Washington, DC 20006




                                     Independent Accountants’ Report


Deputy Inspector General
U.S. Department of Homeland Security:

We have reviewed the accompanying Table of Prior Year Drug Control Obligations of the U.S.
Department of Homeland Security’s (DHS) Federal Emergency Management Agency (FEMA) for the year
ended September 30, 2012. We have also reviewed the accompanying statement that full compliance with
the Office of National Drug Control Policy (ONDCP) Circular, Drug Control Accounting, dated May 1,
2007 (the Circular) would constitute an unreasonable burden (Unreasonable Burden Statement). FEMA’s
management is responsible for the preparation of the Table of Prior Year Drug Control Obligations and the
Unreasonable Burden Statement (collectively the Alternative Report).
Our review was conducted in accordance with attestation standards established by the American Institute
of Certified Public Accountants, and applicable standards contained in Government Auditing Standards,
issued by the Comptroller General of the United States. A review is substantially less in scope than an
examination, the objective of which is the expression of an opinion on the Alternative Report. Accordingly,
we do not express such an opinion.
Management of FEMA prepared the Alternative Report to comply with the requirements of the Circular.
Based on our review, nothing came to our attention that caused us to believe that the Table of Prior Year
Drug Control Obligations and Unreasonable Burden Statement for the year ended September 30, 2012, are
not presented, in all material respects, in conformity with the Circular. The information included in the
ONDCP Performance Summary Report section is presented for the purposes of additional analysis and is
not a required part of the Alternative Report. Such information has not been subjected to the review
procedures applied in the review of the Alternative Report and, accordingly, we do not provide any
assurance on the ONDCP Performance Summary Report section.
This report is intended solely for the information and use of the management of DHS and FEMA, the DHS
Inspector General, the ONDCP, and the U.S. Congress, and is not intended to be and should not be used by
anyone other than these specified parties.




January 18, 2013 





                               KPMG LLP is a Delaware limited liability partnership,
                               the U.S. member firm of KPMG International Cooperative
                               (“KPMG International”), a Swiss entity.
                                                          U.S. Department of Homeland Security
                                                                     Washington, DC20472




                                       January 18, 2013

MEMORANDUM FOR:	           Ms. Anne L. Richards
                            Assistant Inspector General for Audit
                            U.S. Department of Homeland Security

FROM:	                      David J. Kaufman
                            Acting Assistant Administrator, Grant Programs Directorate

SUBJECT:	                   FY 2012 Office of National Drug Control Policy (ONDCP)
                            Alternative Report-Federal Emergency Management Agency (FEMA)

Attached for your review and response is the ONDCP 2012 Alternative Report and Performance
Summary Report for FEMA. As required by the ONDCP Circular: Drug Control Accounting dated
May 1, 2007, the report show that FEMA’s prior-year drug control obligations are less than $50
million and is in full compliance with the requirements of the Circular and constitutes an
unreasonable burden.

If you have any questions, please contact the Grant Programs Directorate at ASKCsid@fema.gov.


Attachments:

ONDCP Alternative Report – FEMA Resource Summary
                                                                U.S. Department of Homeland Security
                                                                           Washington, DC20472




        ONDCP 2012 Alternative Report – FEMA Resource Summary


Prior Year Drug Control               FY 2009         FY 2010           FY 2011                FY 2012
Obligations
Function: State and Local
Assistance
Decision Unit: Operation            $28,249,460     $25,903,027       $23,826,599            $20,500,000
Stonegarden Grant Program

The information above represents data submitted by grantees reflecting the total funding obligated to
grantees (drawdowns) for personnel costs as a percentage of total OPSG awards for the Fiscal Years
2009, 2010, and 2011. Since data is not yet available for FY 2012, based on the two most recent
years’ draw downs, FEMA estimates the amount of funding that will be drawn down by grantees on
personnel costs will be similar and approximately 44.0%, equivalent to $20.5 million (out of a total
obligation of $46.6 million for OPSG). Total obligations from OPSG to grantees for drug
interdiction are likely less than $1 million/year, but, because all personnel costs are reported
together, the specific amounts obligated for drug enforcement cannot be determined.

There are two funding categories for which grantees can use OPSG funds: equipment and
organization (personnel). Since no equipment is purchased for drug interdiction using OPSG funds,
personnel costs are the only category of funds used to estimate possible drug interdiction activities
under this grant program. Personnel activities supported with OPSG funds include protection from
various criminal activities such as (in order of prevalence): vehicle stops, citations for offenses
including drinking and driving, penal violations as well as minor and significant seizures (which
may include firearms, stolen goods and drugs).

Pursuant to provisions in Paragraph 9 of the ONDCP Circular issued May 1, 2007, I hereby state that
full compliance with this Circular constitutes an unreasonable reporting burden on the agency and
that the obligations reported under this section constitute the statutorily required detailed accounting.



_________________________________________                                              1/18/13
David J. Kaufman, Acting Assistant Administrator                                        Date
Grant Programs Directorate
                                                             U.S. Department of Homeland Security
                                                                        Washington, DC20472




                                         January 18, 2013

MEMORANDUM FOR:	            Ms. Anne L. Richards
                             Assistant Inspector General for Audit
                             U.S. Department of Homeland Security

FROM:	                       David J. Kaufman
                             Acting Assistant Administrator, Grant Programs Directorate

SUBJECT:	                    FY 2012 Office of National Drug Control Policy (ONDCP)
                             Performance Summary Report-Federal Emergency Management
                             Agency (FEMA)

Attached please find FEMA’s Performance Summary Report in compliance with ONDCP Circular:
Drug Control Accounting, Section 7, Performance Summary Report. The data represents grant
dollars reported as obligated by grantees in Fiscal Years 2009, 2010, and 2011 and estimated grant
dollars in FY 2012 (data for FY 2012 is not yet available) for organizational expenses, which mostly
include personnel costs.

Hopefully the data meets the needs of the Review and the ONDCP Circular. If you have any
questions, please contact the Grant Programs Directorate at ASKCsid@fema.gov.

Attachments: ONDCP Performance Summary Report
                U.S. Department of Homeland Security
                           Washington, DC20472




         FY 2012


ONDCP Performance Summary 

         Report

                                                              U.S. Department of Homeland Security
                                                                         Washington, DC20472




                    ONDCP FY 2012 Performance Summary Report



                                                       FY 2009        FY 2010         FY 2011           FY 2012

        Drug Resources by Function
State and Local Assistance
Total Drug Resources by Function

        Drug Resources by Decision Unit
Total Personnel Costs for Operation Stonegarden     $28,249,460   $25,903,027     $23,826,599        $20,500,000


INTRODUCTION
The Operation Stonegarden (OPSG) grant program supports efforts to secure the United States’
along routes of ingress from international borders. FEMA awards OPSG funds in coordination with
DHS Customs and Border Protection (CBP), Office of Border Patrol (OBP). OPSG funds support a
broad spectrum of activities in border areas as a part of “State and Local Preparedness Programs”
and with a programmatic nexus to state, local, and tribal law enforcement agencies.

OPSG funds mostly support personnel (organizational) costs that augment state, local and tribal
officers through highly-visible, uniformed patrols. Most personnel costs are used to increase the
number of hours of “boots on the ground” by funding activities during overtime hours, increasing
current part time law enforcement personnel salaries to bring them to temporary full time status, and
by paying for backfill costs resulting from personnel supporting operational activities. Although
drug seizures can occur during periods of operations supported by OPSG, by law, it is not a drug
enforcement program.

Performance Measure: Document obligations of personnel costs that augment law enforcement
capacity, including drug enforcement, along routes of ingress from international borders.

OPSG funds are awarded to State Administrative Agencies (SAAs). SAAs are required to pass
through 100% of funds allocated for OPSG to counties and federally recognized tribal governments
(sub-recipients) for implementation.

The SAAs provide updated obligations and expenditure information to FEMA’s Bi-annual Strategy
Implementation Report (BSIR) twice a year using the web-based IJ submission module in the Grants
Reporting Tool (GRT). There are two funding categories for which grantees can use OPSG funds:
equipment and organization (personnel). Because no equipment is purchased for drug interdiction
using OPSG funds, personnel costs are the only category of funds used to estimate possible drug
interdiction activities under this grant program. Personnel activities supported with OPSG funds
include protection from various criminal activities such as (in order of prevalence): vehicle stops,
                                                                    U.S. Department of Homeland Security
                                                                               Washington, DC20472




citations for offenses including drinking and driving, penal violations as well as minor and
significant seizures (which may include firearms, stolen goods and drugs).

The table below summarizes OPSG funding history.

                                                      FY 2009     FY 2010           FY 2011          FY 2012
 Total Grant Funding Awarded                       $90,000,000   $60,000,000      $54,890,000       $46,600,000
 Number of Applications Received                         88         104               121                  123
 Number of Applications Funded                           88         102               111                  121
 Personnel costs as percentage of total grant
                                                         31.7       43.2              44.4                 44.0
 awards

The information above represents data submitted by grantees reflecting the total funding obligated to
grantees (drawdowns) for personnel costs as a percentage of total OPSG awards for the Fiscal Years
2009, 2010, and 2011. Whereas 2009 and 2010 funds have been fully expended, because of the
program’s two year period of performance, 2011 and 2012 funds have not been fully expended and
grantees are still able to draw down on these most recent years’ funds. Furthermore, FEMA cannot
provide FY2012 data on obligations for personnel yet, because funds for FY 2012 were not awarded
until September, 2012, and the first report is not due until at least six months after the award notice
has been received by the grantee. Final drawn down rates for personnel costs for FY 2011 and 2012
will not be known until after the end of the period of performance for these grant years. Differences
in drawdown rates for each year are the result of varying demands by grantees for personnel and
equipment to implement OPSG from year to year.

Since data is not yet available for FY 2012, based on the two most recent years’ draw downs, FEMA
estimates the amount of funding that will be drawn down by grantees on personnel costs will be
similar and approximately 44.0%, equivalent to $20.5 million (out of a total obligation of $46.6
million for OPSG). Total obligations from OPSG to grantees for drug interdiction are likely less
than $1 million/year, but, because all personnel costs are reported together, the specific amounts
obligated for drug enforcement cannot be determined.

                                TOTAL PERSONNEL COSTS-OPSG
               FY 2009                      FY 2010                FY 2011                    FY 2012
             $28,249,460                   $25,903,027            $23,826,599                $20,500,000


Starting in FY2012 CBP will collect for FEMA data on drug seizures. The first reports with this
information will be available after October 1, 2013.
                                                             U.S. Department of Homeland Security
                                                                        Washington, DC20472




MANAGEMENT ASSERTIONS
Currently there is no statutory or programmatic requirement under OPSG to specifically delineate
drug enforcement activities. The primary intent of the OPSG Grant Program is to fund overtime
costs for law enforcement along routes of ingress from international borders.

Funding for FY2012 OPSG was a set-aside from the Homeland Security Grant Program. OPSG
funds are allocated based on risk-based prioritization using a U.S. Customs and Border Protection
(CBP) specific risk methodology to include (but not limited to) threat and vulnerability, through
utilization of both quantitative and qualitative data.
                               OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix A
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Office of National Drug Control Policy

   Associate Director for Planning and Budget

   Federal Emergency Management Agency

   Administrator
   Chief Financial Officer
   Chief Information Officer
   Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                                            OIG-13-29
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
